OIG Investigative Reports, Former DISD Employee Sentenced To 12 Months In Federal Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
United States Attorney Richard B. Roper
Northern District of Texas
FOR IMMEDIATE RELEASE:
Thursday, August 9, 2007
http://www.usdoj.gov/usao/txn
CONTACT: KATHY COLVIN
Telephone (214) 659-8600
Fax (214) 767-0978
FORMER DISD EMPLOYEE SENTENCED TO
12 MONTHS IN FEDERAL PRISON
DALLAS — Gloria Grace Orapello, a former employee at the Dallas Independent School District (DISD), who pled guilty in February to one count of theft from an organization receiving federal funds, was sentenced today in federal court in Dallas, announced U.S. Attorney Richard B. Roper of the Northern District of Texas. U.S. District Judge Jane J. Boyle sentenced Orapello to 12 months in prison and ordered her to pay restitution. As part of her plea agreement with the government, Orapello agreed to pay $100,000 restitution to the DISD. A reporting date was not set.
As an employee in the Administrative Division of DISD, Orapello received a credit card, also known as a procurement card (P-Card), as part of her employment at DISD, knowing that the P-Card was to be used "for district purchases only." In fact, DISD employees, including Orapello, signed Procurement Cardholder Agreement Forms that stated, "I understand that under no circumstances will I use the procurement card to make personal purchases, either for others or myself." Orapello admitted that she knowingly purchased numerous personal items for her own use with a P-Card issued to her by DISD.
U.S. Attorney Roper praised the investigative efforts of the Federal Bureau of Investigation and the Department of Education. The case was being prosecuted by Assistant U.S. Attorney Lynn Hastings.
Printable view
Share this page
Last Modified: 08/10/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov